                             CLOSEOUT FOR CASE M99020006
On 22 February 1999, an NSF program officer1brought allegations of misconduct in science to our
attention. In a letter to the program officer, the complainant2 alleged that subjects 1, 2, 3, and 43 had
committed plagiarism in one or more of the following instances: 1) subjects 1, 2, and 4 copied
material from a publication into their paper      without appropriate citations; 2) subjects 1 and 2 used
research results (intellectual theft) in their draft paper B' without appropriate citations, and
inappropriately altered two of the citations; 3) subjects 1, 2, and 4 used ideas (intellectual theft) taken
from a book in their paper c6without appropriate citations; and 4) subjects 1,2, and 3 copied material
from several publications into their NSF Annual ~ e ~ owithout
                                                            r?      appropriate citations.

Allegations 1,2, and 3: Our review showed that NSF did not fund the work at issue and therefore did
not have jurisdiction in these matters. However, because another federal agency8 was acknowledged
as the source of funding for work associated with two of these allegations, we reviewed the available
information for all three allegations to determine if any were substantive and if we should forward
either or both of the relevant allegations to the other agency. We concluded that all three allegations
had either no substance or insufficient substance to pursue.                                            -..   A s




Allegation 4: The complainant provided a copy of the NSF Annual Report submitted by subjects 1,2,
and 3 with each allegedly copied section annotated to show the suspected source documents. Each
identified section of the Report that allegedly contained copied text either directly or indirectly cited
one or more of the source documents. We determined that the subjects had cited the source documents
in the Report and that there was insufficient substance to pursue this allegation.

This inquiry is closed and no fkther action will be taken.
                     -.     .. . .   1.
                                          .
cc: Integrity, IG.




                                               Page 1 of 1                                       M 99-06
